  U.S. Department of the Interior
       Office of Inspector General

   Wildland Fire
Management
    g      Overview
   ER-IS-MOA-0010-2009-Wildlands Fire Inspection

                May 2009
                May 2009




                                                   Photos courtesy of www.nps.gov
Primary Wildland Fire Management Activities


                     IIncludes hiring and training personnel, 
                         l d hi i       d i i              l
                        deferred maintenance and capital 
    Preparation       improvements, equipment and supply 
                  purchasing, policy oversight and interagency 
                                   coordination.




                   Includes the total spectrum of 
                  management actions taken on 
                                t ti      t k
    Suppression   wildland fires in a safe and cost‐
                         effective manner.




                  Includes the development and 
                  implementation of:

    Prevention    •Hazardous Fuel Reduction
                  •Wildland Urban Interface protection
                  •Emergency Stabilization and Rehabilitation
                  •Rural Fire Assistance

                                                                                         2
                                                                  Photos courtesy of www.nps.gov
Congressional
   g           concern over Interior’s ability
                                             y to
    mitigate the threat of wildfire and its
                                        g
    associated cost is at an all time high.




  Poor Climate/     Encroaching       Exponential 
                     Wildland
                     Wildland         Federal Fire
                                      Federal Fire 
  E i
  Environment          Urban           Program 
  Degradation        Interface           Costs




                                                      3
               2003 Healthy Forest Restoration Act




                      Improve 
                    commercial       Protect 
    Reduce                                         Promote                            Promote, 
                      value of     watersheds 
wildfire risks to                                 systematic       Improve           Restore, and 
                        forest
                        forest         and
                                       and 
communities,  biomass that                       information     early stage           enhance 
                                    promote                                             Forest 
   municipal         otherwise                     gathering     insect  and 
                                   forest and                                         ecosystem 
water supplies         would                      concerning        disease 
                                   rangeland                                         components
 through fuel increase risk 
 through fuel      increase risk                        g
                                                   ecological     detection
                                   ecological
                                   ecological 
   reduction               of                       threats
                                     health
    projects       catastrophic 
                        fire or 
                       disease
                       disease 

                                                                     Photos courtesy of www.nps.gov 4
                    Interagency Wildland Fire
                      Governance Structure

        POLICY
                                                    COORDINATION
Wildland Fire Leadership 
Wildl d Fi L d hi
    Council (WFLC)                            Fire Executive Council (FEC)




                                 IMPLEMENTATION
                            National Wildfire Coordinating 
                                   Group (NWCG)



                                                           Fire Director, National 
                                                                                      Intertribal  Timber     FEMA US Fire 
                                         g y
                                        Agency                Association State 
                                                                                            Council          Administration
                                                                  Foresters
                                     Fire Directors



                                                 .

                                                                                                                       5
                    Why Do Fires Cost So Much?

20th Century       Resulting in          This causes fires to 
human land         abnormally large      spread more rapidly, 
    /
use/mgmt                  t ff l
                   amounts of fuel       b     l
                                         burn larger areas and d
practices          (excess vegetation)   burn more intensely       Record droughts have 
suppressed                                                         also increased fire risk 
natural activity                                                                                With more people moving into the 
                                                                   and effects
                                                                                                Wildland Urban Interface the fires 
                                                                                                are:
                                                                                                • Threatening more properties
                                                                                                • Threatening more lives
                                                                                                • Requiring more resources




                                                        Photos courtesy of www.nps.gov, www.blm.gov, www.forests and rangelands.gov 6
             DOI Wildland Fire Funding

                                                                        DOI Wildland Fire Budget Changes 
                                                                                   2007‐2009
                                                                       1200
Who Manages the Wildland Fire                                                           $1057M
Program Funding?                                                       1000                        $850.1M 




                                        Funding Levelss in Thousands
                                                                              $853.3M                + ?
Past:    Bureau of Land Management                                      800
         (BLM)
                                                                        600

2009:    DOI Office of Wildland Fire 
                                                                        400
         Coordination (OWFC)
                                                                         00
                                                                        200


                                                                         0
                                                                                2007      2008       2009




                                                                                                              7
       Funding Changes in the Primary
        Wildland Fire Program
                         g    Areas
                         $335.2M
              $289.5M
    $249.1M                                                                              $202.8M



                                                                     $199.8M
                                                                               $199.6M




    2007      2008      2009                                          2007      2008     2009


FIRE SUPPRESSION OPERATIONS                                      HAZARDOUS FUELS REDUCTION
  39% of Wildland Fire Budget                                     24% of Wildland Fire Budget

                                                           $277.7M

                                                $276.5M


                                      $274.9M




                                      2007      2008      2009

                                        PREPAREDNESS
                                   36% of Wildland Fire Budget
                                                                                                   8
Federal 10-Year Strategy and Implementation Plan (2006-2012)

   Improve Fire Prevention and Suppression
   • Fires not controlled in initial attack
   • Amount of unwanted human‐caused fires
   • Fires not controlled in initial attack and incur greater than average costs

   Reduce Hazardous Fuels
   • Number of WUI acres treated
               f
   • Acres treated per million dollars
   • Percent of high priority acreage treated where fire management objectives were met

   Restore Fire‐Adapted Ecosystems 
   • Number and percent of acres treated
   • Percent of natural ignitions allowed to burn and acreage burned
   • Acreage that is treated and is moved to or maintains fire‐adapted ecosystems
   • Percentage of acreage deemed needing treatment that receives it
   • Treated acreage that is recovering

   Promote Community Assistance
   • At risk communities actively reducing risk 
     At risk communities actively reducing risk
   • At risk communities improving suppression capacity
   • Amount of biomass made from fuel reduction and restoration made available for utilization
                                                                                                 9
         Wildland Fire Program:
DOI Performance and Accountability Report
     versus OMB PART Assessments

    DOI PAR:          OMB Rating:  
   Targets Met       Not Performing




                                            10
April 1, 2009 GAO Testimony and FLAME Act
                P   i i
                Provisions
      GAO Agencies lack 
      GAO‐Agencies  lack
                                 •FLAME Act‐ Requires implementation of a system to identify most cost 
 comprehensive strategies to      effective means for allocating resources
contain suppression costs and    •Flame Act‐ Within a year of passage, secretaries must submit a report to 
                                  congress containing a cohesive management strategy 
 for long‐term management


  GAO‐Improve method of 
estimating suppression funds     •FLAME Act‐ Suppression costs must be estimated based upon the best 
                                  available climate and weather data, using models and analytic tools, and the 
                                                                    ,     g                y         ,
   ((currently using a 10 yr. 
            l    i     10         methodology must undergo peer review periodically
       running average) 


   GAO‐Establish a reserve       •Flame Act‐ Establishes fund that can be used under for individual fires that are 
 account to fund emergency        declared severe (size, complexity, or threat) or when suppression costs have 
                                  exhausted appropriated funds
    wildland firefighting


                                                                                                               11
         Fire Program Analysis (FPA) Project

  Lack of good data for:
                                • In 2001, Congress  tells DOI and USDA to design IT 
   Supporting resource 
   Supporting resource            system that would allow for accurate budgeting
                                     t   th t     ld ll f            t b d ti
      acquisitions
                                • DOI and USDA Create the Fire Program Analysis tool
Budget allocation decisions


                               • Provides common interagency framework to analyze 
                                 assets and  develop budget requests
   FPA i
   FPA is an IT tool that:
             IT t l th t       • Analyzes most important fire management activities
                                 A l            i         fi                   i ii
                               • Recognizes presence of non‐federal firefighting assets 
                                 that may be able to respond to fires on Federal Land




                              • Provide data to support budget development and 
                                implementation. 
  How will FPA Improve 
      B d i ?
      Budgeting?              • FPA will “inform” the budget to improve budget decision 
                                making
OIG Report (2006) on Interior’s Hazardous Fuels
                            g
             Reduction Program




                                             13
